OIG Audit Report GR-90-09-006

Office on Violence Against Women Grant to Encourage Arrest Policies and Enforcement of Protection Orders Awarded to Skagit County, Washington
Audit Report GR-90-09-006
May 2009
Office of the Inspector General


Executive Summary


The  Office of the Inspector General (OIG), Audit Division, has completed an audit  of the grant to encourage arrest policies and enforcement of protection orders awarded  by the U.S. Department of Justice (DOJ), Office on Violence Against Women  (OVW), to Skagit County, Washington (Skagit). The  purpose of the grant was for Skagit to implement  a coordinated community response to domestic violence and expand upon its  efforts to strengthen enforcement of domestic violence laws and advocacy for  victims of domestic violence.  As of August 31, 2008, OVW had awarded Skagit a total of  $1,486,230, of which Skagit expended $873,904. 
The objective of the audit was to determine whether cost reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  We tested Skagits compliance with essential grant conditions, including budget management and controls, grant expenditures, grant drawdowns, local match requirements, and reporting requirements.
We found that Skagit County generally complied with essential grant requirements.  However, we identified several instances in which costs charged against the grant were either unallowable or unsupported.  Specifically, we identified:

$1,575 in salary and associated fringe  benefits that were not supported by time sheets,
$4,582 in unallowable costs related to  unauthorized fringe benefits, and
$15,549 costs associated with consulting  services provided by Skagit   County’s Domestic Assault  Response Team that were not supported by payroll registers.

In total, we questioned $21,706 in costs charged against the grant.
We discuss these  matters in the Findings and Recommendations Section of the report.  Additionally, we discussed the results of our audit with Skagit  officials and have included their comments in the report, as applicable.  In addition, we requested written responses to our draft report from Skagit and OVW, which are included in Appendices III and  IV, respectively. Our audit objective, scope and methodology appear in  Appendix II of this report.



 




Return to OIG Home Page